No. 20-888
IN THE SUPREME COURT OF THE UNITED STATES
ABDUL RAZAK ALI,
Petitioner,
vs.
JOSEPH R. BIDEN, JR., President of the United States, et al.,
Respondents.
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear or declare that I am retained by Counsel of Record for
Petitioner. On this date, February 3, 2021, I have served the enclosed BRIEF OF
PROFESSORS ERIC JANUS, MICHAEL L. PERLIN, IRA ELLMAN,
CHRYSANTHI LEON AND WAYNE A. LOGAN AS AMICI CURIA IN SUPPORT
OF PETITIONER on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by emailing a PDF copy of same to the
email addresses listed on the docket.
The names and addresses of those served are as follows:
Shayana Devendra Kadidal
Counsel of Record
Center for Constitutional Rights
666 Broadway, 7th Floor
New York, New York 10012
(212) 614-6438
kadidal@ccrjustice.org
Counsel for Petitioner
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Respondents
That on the same date as above, I sent to this Court one copy of the within BRIEF
OF PROFESSORS ERIC JANUS, MICHAEL L. PERLIN, IRA ELLMAN,

CHRYSANTHI LEON AND WAYNE A. LOGAN AS AMICI CURIA IN SUPPORT
OF PETITIONER via Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
February 3, 2021.
_____________________________
ORIGINAL

39212

